<html>
<title> - NIGERIA: ON THE DEMOCRATIC PATH?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                    NIGERIA: ON THE DEMOCRATIC PATH?

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, August 3, 1999

                               __________

                           Serial No. 106-83

                               __________

    Printed for the use of the Committee on International Relations


                               <snowflake>


                     U.S. GOVERNMENT PRINTING OFFICE
63-273                       WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT E. ANDREWS, New Jersey
DANA ROHRABACHER, California         ROBERT MENENDEZ, New Jersey
DONALD A. MANZULLO, Illinois         SHERROD BROWN, Ohio
EDWARD R. ROYCE, California          CYNTHIA A. McKINNEY, Georgia
PETER T. KING, New York              ALCEE L. HASTINGS, Florida
STEVE CHABOT, Ohio                   PAT DANNER, Missouri
MARSHALL ``MARK'' SANFORD, South     EARL F. HILLIARD, Alabama
    Carolina                         BRAD SHERMAN, California
MATT SALMON, Arizona                 ROBERT WEXLER, Florida
TOM CAMPBELL, California             STEVEN R. ROTHMAN, New Jersey
JOHN M. McHUGH, New York             JIM DAVIS, Florida
BILL LUTHER, Minnesota               EARL POMEROY, North Dakota
LINDSEY GRAHAM, South Carolina       WILLIAM D. DELAHUNT, Massachusetts
ROY BLUNT, Missouri                  GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
THOMAS G. TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Howard Jeter, Deputy Assistant Secretary, Bureau of Africa 
  Affairs, U.S. Department of State..............................     4
Bronwen Manby, Researcher, Africa Division, Human Rights Watch...    14
David C. Miller, Jr., President ParEx, Inc.......................    16
Lloyd Pierson, Director, Africa Division, International 
  Republican Institute...........................................    18

                                APPENDIX

Chairman Edward R. Royce.........................................    32
Chairman Benjamin A. Gilman......................................    33

                              SUBMISSIONS

Congressional Delegation Royce (Nigeria) Report..................    36



                    NIGERIA: ON THE DEMOCRATIC PATH?

                              ----------                              


                        Tuesday, August 3, 1999

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:10 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(Chairman of the Subcommittee) Presiding.
    Mr. Royce. This hearing of the Subcommittee on Africa will 
come to order. Nigeria is one of the most important countries 
on the continent. Its economic and political potential is 
unmatched in Africa. Unfortunately, Nigeria has not come close 
to meeting its potential since independence. With the 
installation of democratically elected President Olusegun 
Obasanjo, there is reason to be cautiously optimistic about 
Nigeria's future. For now, Nigeria's legacy of military rule 
has been suppressed.
    Today it is crucial that the United States and others work 
with the new Nigerian Government and Nigerian civil society to 
see that civilian rule takes root and that the talented 
Nigerian people are empowered. Examining such an U.S. effort is 
one focus of this hearing.
    There is considerable congressional interest in Nigeria. 
The Ranking Member of this Subcommittee, Mr. Payne, 
Congresswoman Lee, Congressman Meeks, and I had the opportunity 
to observe Nigeria's Presidential elections in February. We are 
also Members of the Congressional Caucus on Nigeria. The caucus 
is committed to helping forge stronger political and economic 
ties between the two countries.
    In all our efforts, we need to be realistic. Nigeria faces 
great challenges. The country is suffering from widespread 
poverty, which has increased significantly over recent years. 
Many young Nigerians have never lived under civilian rule. To 
them, civilian rule and democracy are novel concepts, and 
unfortunately, little foundation for the rule of law exists in 
Nigeria. Establishing a democracy respectful of human rights in 
this climate will be a great and long-term challenge. Economic 
reform, particularly the selling of state-owned mismanaged 
enterprises, will be essential to meet this challenge.
    The greatest short-term challenge to Nigeria's democratic 
progress is the deteriorating political situation in the Delta. 
Violence there is escalating with ethnic clashes growing and 
oil companies coming under frequent physical attack. 
Increasingly, production platforms are being occupied and 
facilities are being sabotaged. Hundreds of Nigerian lives are 
being lost in the Delta.
    The central challenge for the Obasanjo government in the 
Delta is to write new rules of the game that address legitimate 
grievances while isolating the militant element of political 
activists who are resorting to violence and who will never be 
satisfied as the United States itself become active in the 
Delta. By aiding nongovernmental organizations, we must 
carefully guard against empowering destructive elements. The 
Delta is a tinderbox, and the U.S. Government has no business 
being there or in other regions where ethnic strife is flaring, 
unless we exercise a great deal of deftness in our civil 
society work.
    The United States needs to be engaged with Nigeria in a 
significant way. We should proceed aggressively, 
enthusiastically, but also cautiously.
    [The information referred to appears in the appendix.]
    Mr. Royce. At this point, I would like to recognize the 
Ranking Member of this Committee, Mr. Payne, for an opening 
statement. Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman, and I commend 
you for calling this very important hearing. As you indicated, 
we have traveled to Nigeria on several occasions, having the 
opportunity more recently to observe the elections in February 
and also to get to the swearing-in of President Obasanjo.
    Over the years this Subcommittee has held numerous hearings 
on Nigeria, and at times the main topic was corruption in the 
military dictatorship. The difficult transition toward the 
democratic governance and a market-based economy in Nigeria 
took another step with the election of President Obasanjo on 
February 27th of this year. Retired General Colin Powell, 
former President Carter, yourself, Chairman of this 
Subcommittee, led the delegation. Congressman Meeks, Lee, and 
retired Senator Kassebaum and I traveled to Lagos and Abuja to 
monitor the elections. We felt that the elections were 
relatively fair and free, and any fraud didn't have an impact 
on the outcome of the elections.
    In a country that has been under military rule for 28 of 
the 39 years of independence, it is acknowledged that this 
process will require the support and strong support of the 
international community.
    U.S.-Nigerian relations are extremely important. Currently 
U.S. investments in Nigeria total some $8 to $10 billion. 
However, Nigeria still must help to combat narcotics 
transmission and international business scams in order for U.S. 
investors to remain in the country. One area that General 
Obasanjo must tackle is the amount of corruption in Nigeria.
    In the following months after Sani Abacha's death, 
revelations about the massive scale of corruption in his regime 
began to surface. The government recovered $63 billion of the 
Abacha's family wealth, but the full extent of what was stolen 
will never be known. New accounts reveal that in 1997 Abacha 
demanded and received $4 billion nira, about $180 million, from 
the Central Bank on 1 day alone.
    The economy meanwhile is in a critical state. Oil, or 
rather the misuse of oil money by the military elites, left the 
country in shambles. So I think it is unfair to look at the 
great burden that General Obasanjo has and how this entire 
debt, which is over $30 billion, will have to be reconciled 
with the international community.
    Let me just conclude by saying that I am very concerned 
about the continued tensions in the rich Niger Delta. The 
people who live there have watched billions of dollars flow out 
of their soil, and all they have done is to grow poorer and 
sicker. This must end. As we know that the execution of Ken 
Saro-wiwa and the Ogoni 8 several years ago led to clashes 
between the Ogoni people and Chevron, the government needs to 
work closely in the next few months to come up with some 
reconcilable program in order to work out this very serious 
situation in the Niger region.
    I think the Delta problem is probably one of the most 
difficult, but we need a strong and healthy Nigeria. We look 
forward to its leadership in Africa. If Nigeria is well, we 
think that Africa will become well.
    Mr. Royce. Thank you, Mr. Payne.
    Mr. Royce. The Vice Chairman of this Subcommittee, Mr. 
Houghton of New York.
    Mr. Houghton. No opening statement.
    Mr. Royce. We will go to Mr. Hastings of Florida.
    Mr. Hastings. Mr. Chairman, I don't have any opening 
statement.
    Mr. Royce. Thank you. Mr. Campbell of California.
    Mr. Campbell. No opening statement.
    Mr. Royce. All right. Ms. McKinney of Georgia.
    Ms. McKinney. Thank you, Mr. Chairman. I do have an opening 
statement which I would like to submit for the record.
    Mr. Royce. Thank you.
    Ms. McKinney. I would like to welcome the panelists who are 
here today, and I especially look forward to hearing from all 
of you. Welcome again, Mr. Ambassador. I think we all welcome 
the end of the dictatorship and the beginning of democracy, but 
as we all know, democracy consists of more than having an 
election. Democracy is what happens after the election, and 
then of course not only that, but a successful and a smooth 
transition as well.
    Good governance issues are going to be very important as 
well as the issue raised by our Ranking Member on the 
Subcommittee, the $30 billion debt that Nigeria suffers from, 
labors under today.
    But I am particularly concerned about the conduct of U.S. 
corporations on the continent, and I am particularly concerned 
about the conduct of U.S. corporations in the Delta, 
particularly Chevron, and I will have some questions along that 
line about what the U.S. Government response is to the problem 
of the conduct, increasingly bad conduct of U.S. multinationals 
on the continent.
    I look forward to hearing the testimony from the panelists, 
and thank you, Mr. Chairman.
    Mr. Royce. Thank you, Ms. McKinney.
    Mr. Royce. We will now go to our first panel Ambassador 
Howard Jeter, the new Deputy Assistant Secretary for African 
affairs, has had a very distinguished diplomatic career. He has 
served as the U.S. Ambassador to Botswana and Special 
Presidential Envoy for Liberia, in addition to postings in 
Botswana, Lesotho, Mozambique, Namibia, and Tanzania. 
Ambassador Jeter is recently returned from co-leading a 17-
member interagency task force to Nigeria. We are very eager to 
hear about your experiences there. Ambassador Jeter, it is a 
pleasure to welcome you again to the Subcommittee.

 STATEMENT OF HOWARD JETER, DEPUTY ASSISTANT SECRETARY, BUREAU 
          OF AFRICA AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Jeter. Thank you very much, Mr. Chairman, and Members 
of the Subcommittee. It is indeed a pleasure to address this 
Subcommittee on Nigeria's prospects for democracy and 
stability. Just 1\1/2\ years ago, Nigeria was still ruled by 
one of Africa's harshest dictators, going down a treacherous 
path of continued economic and political decay and 
international isolation. Last February, Nigerians went to the 
polls to elect their first civilian democratic President and 
legislature in over 15 years.
    Despite daunting challenges, we believe Nigeria now has the 
best chance in decades to turn to a new democratic chapter in 
its history and to begin finally to realize its enormous 
potential to bring greater prosperity and stability to its own 
people and to others on the continent.
    Mr. Chairman, U.S. goals in Nigeria prior to the 
transition, as well as today, remain constant. We seek a stable 
Nigeria that respects human rights, promotes democracy and 
enhances the welfare of its people.
    We also have sought better cooperation with the Government 
of Nigeria in combating international narcotics trafficking and 
crime. We hope to be in a position to promote favorable trade 
and investment partnerships in what is the largest economy on 
the continent. Thus, Secretary Albright has designated Nigeria 
as one of four priority countries in the world, along with 
Colombia, Ukraine, and Indonesia, whose democratic transition 
we have a vital national interest in backing.
    A number of senior administration officials have traveled 
to Nigeria over the course of a year to discuss long-term U.S. 
Nigerian engagement. President Clinton, Secretary Albright, and 
Treasury Secretary Rubin met with President-elect Obasanjo on 
March 30th and assured him we would provide continued and 
active support at this critical juncture in Nigeria's history. 
Finally, at the President's request, an interagency assessment 
team, which I co-led, traveled to Nigeria from June 19th to 
July 2nd to explore with the Nigerian Government, civil society 
leaders and the U.S. and Nigerian business communities 
proactive assistance programs this year and beyond.
    Mr. Chairman, we are investing in this high-level 
commitment in Nigeria because the stakes are so high. Nigeria 
is our second largest trading partner in all of Africa. 
American companies have invested over $7 billion in the 
country's petroleum sector. Nigeria is large and it is 
influential. It has an ancient culture, tremendous human talent 
and enormous wealth. The most populous African nation, Nigeria 
is home to more than 100 million people with over 250 ethnic 
groups and an abundance of natural resources.
    Equally important, Nigeria is a major force in the sub-
region and has played an invaluable role in helping to bring 
stability to this volatile neighborhood. It has been the major 
troop contributor to the peacekeeping force of the Economic 
Community of West African States Monitoring Group, ECOMOG. With 
a resolution of the conflict in Sierra Leone, Nigeria hopes to 
be able to divert more resources to its own internal 
reconciliation and reconstruction efforts.
    Nigeria's new leadership deserves enormous credit, Mr. 
Chairman, for last year's transition. Against considerable 
odds, General Abdulsalami Abubakar effectively guided the 
process, releasing political prisoners, persuading the military 
to make concessions and working with the World Bank and the IMF 
to improve the economy.
    The United States is encouraged by President Obasanjo's 
first moves as head of state as well. First, Nigeria's 
leadership has begun to address both systemic and entrenched 
corruption and civil military relations. With the former, 
President Obasanjo has an enormous task ahead of him. 
Corruption in Nigeria is longstanding and pervasive. In 
addition to setting up a panel to review all government 
contracts over a span of 20 years, including those awarded 
during his own previous tenure as head of state, President 
Obasanjo has suspended all contracts and appointments made by 
the last military regime. He also has committed to setting up 
an anticorruption agency and introduced an anticorruption bill 
in Parliament.
    These measures are essential to ensure that widespread 
corruption does not rob Nigerians of the significant benefits 
of a future healthy economy and free body politic.
    After decades of military leadership, returning the 
military to their barracks and establishing a professional 
nonpolitical army is one of Nigeria's highest priorities and 
one that will take significant time and energy, as well as 
strong assistance and support from the international community.
    Mr. Chairman, we applaud President Obasanjo's bold steps to 
take control of the military establishment so early in his 
administration by retiring 143 senior military officers, 
including 93 officers who had held political positions in 
previous military governments. This move indicates that 
Obasanjo, himself a former general, will not be intimidated, 
and it bodes well for the turnover of leadership to a civilian, 
democratic government.
    In this regard, Nigerian leaders must also continue their 
efforts to establish functioning democratic institutions and to 
respect human rights. Today, Nigeria has an elected civilian 
government at all levels: local, state, and national. The 
country also has made real progress in improving its human 
rights record by releasing political prisoners last year, 
including those, Mr. Chairman, accused of plotting against the 
Abacha regime.
    In a very positive step, President Obasanjo has named a 
Committee, headed by a former Supreme Court judge, to examine 
human rights violations that took place during successive 
regimes since 1983. We hope Nigeria's leaders will continue 
this vital dialogue, including with elements of civil society 
and the opposition in their efforts to reconcile the Nation and 
establish the mechanisms essential for democratic 
consolidation.
    Nowhere is dialogue more critical than in the Niger Delta 
region, where continued ethnic unrest could threaten Nigeria's 
political transition and economic stability. Discontent caused 
by living in an economically depressed, ecologically ravaged 
environment, while great oil wealth is pumped from the same 
area, has exacerbated ethnic strife in this region.
    Problems in the Delta, Mr. Chairman, are symptomatic of 
prolonged government neglect and corruption that have 
devastated Nigeria's economy and led to massive poverty and 
gross inequities in all corners of this huge country. Despite 
its rich resource endowment, Nigeria remains one of the poorest 
countries in the world. Nigeria has funded the International 
Monetary Fund Staff Monitoring Program since February. If the 
country can remain sufficiently on track with its SMP, the IMF 
could recommend that its board approve an enhanced structural 
adjustment facility. This could pave the way for balance-of-
payments support and possible debt restructuring.
    To reach this goal, Nigeria needs to continue to pursue a 
realistic budget and institute tax reform and an effective 
program of privatization. These reforms are also necessary to 
build business confidence and to attract domestic and foreign 
investment. Without these measures, broad-based growth and 
development could stall with negative implications for 
political stability and democracy.
    Mr. Chairman, Members of the Committee, the road ahead for 
Nigeria is a steep climb; nevertheless, the United States 
stands ready to be an active and supportive partner. Since the 
Abubakar transition, we have steadily increased lines of 
communication with our Nigerian counterparts and rewarded 
progress with serious attention, hands-on counsel and, when 
appropriate, bilateral assistance.
    U.S. assistance to Nigeria for the period of October 1998 
to September 1999 will be approximately $27.5 million, targeted 
toward democratic institution building, health care, and the 
strengthening of civil society. We plan to target some 
remaining fiscal year 1999 funding toward additional 
reconciliation and resolution programs in the Niger Delta 
region and other conflict areas in Nigeria.
    We want to work closely with Members of Congress, including 
with this Subcommittee, toward a significant increase in 
assistance to Nigeria in fiscal year 2000 and beyond. Such 
cooperation is in both countries' interest.
    We look forward, Mr. Chairman, to working with you, with 
Members of the Committee, to make clear to the new leadership 
that we support them as they consider the vast implications of 
a triumphant Nigeria to West Africa and beyond, and choose the 
right path toward democracy and economic reform.
    Mr. Chairman, Members of the Subcommittee, I would be 
pleased to take any questions you might have.
    Mr. Royce. We thank you, Ambassador Jeter.
    [The prepared statement of Mr. Jeter appears in the 
appendix.]
    Mr. Royce. I don't think we are going to start the 
questioning yet because of the votes, but I will at this point 
introduce and acknowledge the presence of a distinguished 8-
person delegation that we have from Mozambique, visiting the 
United States as an electoral study mission under the auspices 
of the National Democratic Institute.
    Mozambique has many lessons to teach African countries 
about national reconciliation and economic reform. The 
delegation is made up of representatives of FRELIMO, the ruling 
party, and RENAMO, the largest opposition party, who will be 
facing off in elections before the end of the year. Less than a 
decade ago, they were adversaries on the battlefield. The 
FRELIMO delegation is led by Mr. Antonio Maton-say, Chief Press 
Advisor to the FRELIMO electoral campaign. Mr. Chico Francisco, 
head of External Relations for RENAMO, heads his party's 
delegation as they now peacefully prepare to go into the 
election cycle. I would ask that the delegation stand at this 
time. Would the Mozambique delegation stand to be acknowledged? 
Ladies and gentlemen, we appreciate you visiting our Committee 
today.
    I would like to welcome Zainab Bangura, the head of the 
Campaign for Good Governance in Sierra Leone. I recently had 
the opportunity to meet with her and hear firsthand about the 
situation in her martyred country. She spoke eloquently about 
the role of civil society in guaranteeing that the peace 
agreement holds which was signed on July 7th by the Sierra 
Leone Government and the Revolutionary United Front holds.
    I trust that the gross human rights violations committed 
during the war will not be simply swept under the rug. We must 
also be on guard so that unrepresented groups with shadowy 
foreign support cannot murder and maim their way into power. I 
would ask if Ms. Bangura would stand at this time.
    We will start with the questioning, Ambassador. We have 10 
minutes. We will go for 5 minutes, then what we will do is 
adjourn, recess for 15 minutes, and come back to continue the 
questioning at that time. I will start questioning now.
    Ambassador Jeter, the U.S. will be working with civil 
society, I assume, in the Delta region, hopefully dimming the 
flames of violence there. How will we ensure that our aid 
efforts do not empower destructive elements, and how do we sort 
among the various political and civil society groups who are 
the potential aid recipients?
    Mr. Jeter. Mr. Chairman, I think that one of the things 
that our embassy in Nigeria has done, they have given special 
attention to coverage of the Delta. They know, I believe now, 
who the key players are, both those who are constructive 
players and those who are destructive players.
    During visits to Nigeria, President Carter also had an 
opportunity to meet with self-selected Delta leaders to discuss 
the problems and the turbulence in the region. Reverend Jesse 
Jackson, the President's Special Envoy for the Promotion of 
Democracy in Africa, also had an opportunity to meet with Delta 
leaders, both in Lagos during one of his visits there, as well 
as travel to the Delta as well. I had the honor of traveling 
with him there, so I think that the key players are known.
    There are members of the various youth groups there who 
have taken more radical policies, and I think that there is no 
real uniformity in terms of the elements in the Delta, and I 
think that we can identify those with whom we would like to 
work.
    Mr. Royce. I thank you, Ambassador.
    Various Nigerian organizations have been attacking and 
sabotaging the facilities of American oil companies and 
kidnapping their personnel in the Delta. I will point out also 
that Nigeria has been faced with severe gasoline shortages due 
to refinery breakdowns and smuggling to neighboring countries. 
This has had a real effect in terms of creating an attitude 
among people about the inability of the government to provide 
basic resources.
    Long gas lines have a direct effect on the economy and on 
the Nigerian people's view of their government. Is the 
availability of gas improving for the man on the street in 
Nigeria at this time?
    Mr. Jeter. Mr. Chairman, I think it is. During our recent 
visit to Nigeria, the gas lines that we had seen several months 
before were certainly shorter. As a matter of fact, in many 
instances, not even visible at all. The Nigerian Government has 
undertaken a program--there are four refineries in Nigeria, and 
the Nigerian Government has undertaken a program to try to 
rehabilitate those refineries, some of which are operating now 
at, I am tempted to say, near capacity, but certainly this is 
an issue for the new government.
    As a matter of fact, this rehabilitation started during the 
regime of General Abubakar, and I think it is going to take 
some time before this rehabilitation is completed, but 
certainly a good faith and, I think, serious effort has already 
begun. Those gas lines are disappearing.
    Mr. Royce. When we were there, two of the refineries, half 
of the refineries in the Lagos area, were down and it was 
having a pronounced effect.
    Nigeria has announced that on August 26 it will begin a 
phased withdrawal of its troops assigned to the ECOMOG 
peacekeeping mission in Sierra Leone. Do we know anything about 
the pace of this withdrawal, and how is the U.S. helping 
ECOMOG? Are we encouraging Nigeria to maintain troops in Sierra 
Leone?
    Mr. Jeter. I think, Mr. Chairman, that in our discussions 
with President Obasanjo, he has given assurances that the 
withdrawal of Nigerian and ECOMOG troops from Sierra Leone 
would not be precipitous. We have heard that pledge repeated 
over time. I think that there is a distinct possibility that 
ECOMOG, which is predominantly a Nigerian force, will take part 
in the actual disarmament, the mobilization and reintegration 
of combatants in Sierra Leone. This is a decision certainly on 
the part of ECOMOG itself, but there is an ongoing dialogue 
between the regional leadership and the United Nations.
    As a matter of fact, today, the ECOMOG force commander is 
in New York for discussions with the Department of Peacekeeping 
Affairs there to try to assess next steps.
    Our hope, Mr. Chairman, is that decisions on this issue can 
be made quickly so that the process of disarmament and 
demobilization can begin soon.
    Mr. Royce. Thank you, Ambassador Jeter. We are going to go 
to Mr. Payne, and afterwards we are going to recess for this 
series of votes and then come back shortly after to finishing 
the questioning.
    Mr. Payne. Thank you very much, Mr. Ambassador. Let me 
commend you for your outstanding work that you did in Liberia 
and also your negotiations in Sierra Leone and also your recent 
visits to Liberia for the destruction of the weapons, and I 
commend you for your continued good work.
    Let me ask a question regarding the military. Many generals 
were retired when President Obasanjo came into power. What has 
been the reaction of the military, and has this been accepted, 
and do you feel that the former generals who had some power, 
General Babingitha and General Abubakar are supportive of these 
moves?
    Mr. Jeter. Thank you, Congressman Payne, and thank you very 
much for those kind words. I do appreciate it.
    The steps that President Obasanjo took in helping to ease 
out senior military leaders I think is a bold step. In addition 
to the retirements of the service chiefs, other senior military 
leaders, and the retirement of General Abubakar himself, he 
also mandated that those officers who had participated or who 
had held political positions over the last 15 years should also 
resign from the military.
    I think, Representative Payne, that if there was not 
support from the military, we wouldn't have seen such a smooth 
transition. There is a perception, which I believe is 
erroneous, that the military flourishes and prospers under 
military governments. That was certainly not the case under the 
Abacha regime. The military was diminished as an institution. I 
think it was in some ways devastated, and what those officers 
are now looking toward is the rebuilding and the 
reprofessionalization of the military. There has so far 
certainly not been any backlash from senior members of the 
military or others.
    Mr. Royce. We only have a minute left so why don't we 
continue with Mr. Payne's questioning when we return?
    Mr. Payne. OK.
    Mr. Royce. Thank you. We are in recess, Ambassador.
    [Recess.]
    Mr. Royce. We are going to reconvene this hearing at this 
time, if everyone would take their seats. We are going to start 
with our Ranking Member, Don Payne. He was in the middle of 
questioning of Ambassador Jeter, and we will restart the clock 
here, Don.
    Mr. Payne. Thank you very much.
    Ambassador, as you know, there are several problems as 
related to corruption in Nigeria. Some of it internal, as we 
know, contracts and so forth. But also there was the whole 
question of 419, and it was felt that there had to be officials 
looking the other way in order for it to be so pervasive, with 
official-looking documents going out to people, and these 
scams.
    Have there been any discussions about 419 as it impacts on 
people outside of Nigeria primarily? As you know, it is common 
throughout the world and indeed in the USA, and I just wonder 
whether they have taken a look at trying to repair the 
tarnished image that Nigeria has as it relates to the scam and 
some of those problems? Then I have one final quick question. I 
will let you respond first.
    Mr. Jeter. Thank you, Congressman Payne. I think that there 
has been an ongoing dialogue beginning with the Abubakar 
administration on the question of financial fraud or, as it is 
known, 419 scams. That dialogue has been, I think, accelerated 
with the new government. I think that the Obasanjo 
administration recognizes that the image of Nigeria is a 
deterrent to increased foreign investment, to improving the 
world's view of Nigeria as a country to do business with.
    There has been progress on the 419 front. There are 30 
serious cases that have been adjudicated in the courts. They 
have led to some convictions, and I think that this is an area 
where we will have enhanced cooperation with the current 
government.
    Mr. Payne. Finally, as you indicated you recently returned, 
there were a number of people from the administration, almost 
every sector, State, Transportation, USAID, Defense and so 
forth, and that I imagine you also were in Lagos or Abuja. Did 
anyone visit the Niger Delta region, and just what is the 
administration's assistance to Nigeria as it relates to the 
difficulty in the Niger region?
    I know it is an internal matter, but there are U.S. and 
multilateral oil companies that are involved there. Have we 
attempted to be of any assistance since that is going to 
continually be a serious issue in Nigeria?
    Mr. Jeter. Again, there are some of my colleagues here who 
actually participated on the interagency assessment team, 
including the co-leader of the team Mr. Keith Bramm from AID. 
We have some Members here from the Department of Energy and 
others, and I would like to use this forum, Mr. Chairman, just 
to commend them for the hard work that they did and the very 
productive work that they did.
    The Niger Delta, I think the problems are well-known in the 
administration, our administration. The problems are well-known 
I think in the Obasanjo administration. One of President 
Obasanjo's first acts as President was to go to the Delta, 
engage with the full spectrum of leadership down there. That is 
something that would have never happened under predecessor 
governments.
    The approach of the Abacha regime was to use the iron fist. 
I think that General Abubakar started a dialogue. That dialogue 
is now ongoing with the Obasanjo government. The government 
itself has drawn up a master plan for the Delta. They have 
started to tender for technical assistance to implement the 
master plan.
    We do plan to have activities in the Delta. As a matter of 
fact, we have activities under OTI, Office of Transitional 
Initiatives, in the Delta now. We plan to have a more expansive 
program there, and they will deal with conflict resolution, 
community development, and other issues. But, Representative 
Payne, the firm outlines of those programs have not yet been 
detailed in full, but we do plan certainly to be engaged.
    Mr. Royce. Thank you, Mr. Payne. Mr. Hastings of Florida.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Ambassador, I hear you say that this is a work in progress, 
but are there timetables that were established as a result of 
the Interagency Assessment Team's activities or, for example, 
when Stu Eizenstat was in country in Nigeria, the joint-
economic-partnership kind of undertaking arose. Are there 
timetables on any of this?
    Mr. Jeter. I think, Mr. Hastings, that we are near the 
process now of finalizing the report of the interagency 
assessment mission. That report will be presented formally to 
our government, the White House and other agencies. It will be 
made available to Members of this Committee, I am sure, and 
will be a public document, and the recommendations that are 
contained therein carry a price tag.
    I mentioned this morning that our assistance to Nigeria is 
$27.5 million for this year. Given the size of the country, the 
nature and scope of the needs, the priority that we placed on 
Nigeria as one of the key transition countries in the world, it 
is obvious to us, those of us who participated on the 
assessment team, that our assistance to Nigeria has to be 
increased and perhaps dramatically increased. We don't have a 
specific timetable, but we are working all very hard on trying 
to make sure that our recommendations are known and that they 
are taken under consideration in formulating next year's 
budget.
    Mr. Hastings. On page 6 of your written testimony, 
Ambassador, you reflect the following. One of the major 
barriers to increased United States assistance to Nigeria, as 
Members know, has been the lack of cooperation in countering 
narcotics. We cannot provide direct assistance to any 
government not meeting the standards for either certification 
or a waiver.
    Let me preface my remarks and then put a question to you, 
because it was not on your watch that decertification arose as 
an issue. I have continuously argued that our government has 
mixed standards for determining who ought and who ought not be 
decertified. When you make a statement that is in here, ``we 
cannot provide direct assistance,'' then I want to know why we 
are providing direct assistance to Mexico, for example, where 
most of the drugs come from, or why we are providing direct 
assistance to Pakistan, where a whole hell of a lot of 
Nigerians are involved in transatlantic shipments dealing with 
drugs. I can go on and on and on around the world where this 
just doesn't hold water, and it kind of troubles me about 
Nigeria.
    I guess what I need to know from you is, what efforts are 
being made and what is the current status of decertification? 
Coupled with that, is how much longer is Nigeria going to have 
to pursue the requirements of the FAA before Lagos is opened 
up? It is clear to me that unless we can travel and people can 
have ingress and egress on a regular basis with all of the 
requirements being met, we are going to keep this country 
limping along for some time in the future.
    Again, Ambassador, both of these issues didn't rise on your 
watch, I understand that. The question is, do you have any 
answers?
    Mr. Jeter. Thank you, Representative Hastings. On the 
question of decertification and our policy on counternarcotics 
vis-a-vis Nigeria--I can't really speak to the issue of 
Mexico--but on Nigeria, what we are seeing now is in sharp 
contrast to what we saw in previous governments. We hardly had 
a dialogue during the Abacha regime on the question of 
counternarcotics.
    It is known in Nigeria that Nigerian nationals are 
responsible for significant quantities of narcotics, including 
heroin, that enter this country. There are international 
standards that have to be met, and I think Nigeria under Abacha 
certainly didn't come to meeting those standards; therefore, 
they were decertified.
    There has been progress made. The certification that was 
given was based, however, on the President's determination that 
it was in the U.S. national interest to grant certification so 
that we could more fully engage with Nigeria. At every 
opportunity, at every turn during our assessment mission to 
Nigeria during the Ambassador's meeting with senior officials 
in Nigeria, we emphasized the need to move forward on this, and 
I am happy to report I think certainly the dialogue on this 
question is much, much improved.
    Certification, the question of certification comes up again 
in March. We hope that progress can be made. There are some 
extradition cases in court now, and we hope that those can be 
expedited because that would be a signal of commitment.
    The airport issue is an important one. It certainly is for 
Nigerians. We have officials from the FAA who are in Nigeria 
now, actually working with Nigerian counterparts on the 
question of security and bringing the airport up to standard. 
They have made considerable progress in upgrading the Murtala 
Mohamed Airport in Lagos. We can't predict these things, but 
one would hope that the airport would be certified in the not-
too-distant future.
    Mr. Royce. Thank you, Mr. Hastings.
    Ms. McKinney of Georgia.
    Ms. McKinney. Thank you, Mr. Chairman.
    Mr. Ambassador, I have three questions that I would like to 
pose to you. The first one is that I know that my quality of 
life has been enhanced by the $7 billion that you noted earlier 
of American corporations in Nigeria, but could you tell me how 
that investment has positively impacted the quality of life of 
the Nigerian people at large?
    Second, could you tell me what U.S. policy is on the Niger 
Delta crisis?
    Finally, what confidence do you have that Nigeria has 
wealth will be shared by the population at large by the actions 
of the new government?
    Mr. Jeter. Thank you very much. I think all of those 
questions are pertinent ones and very important questions.
    On the question of investment, Nigeria derives over 90 
percent of its foreign exchange earnings from the export of 
oil; 40 percent of its GDP is constituted by earnings from oil. 
I believe upward of 80 percent of the national budget is made 
up of revenues from oil. The infrastructure that we see in 
Nigeria--and it has diminished but it certainly has potential--
is based on an oil economy. We believe that there is an 
overreliance on oil, but nonetheless, it is a major feature of 
the Nigerian economy.
    So I guess if we look at it, Nigeria has earned substantial 
resources from oil exports. Those revenues have not been 
adequate or well managed. If we get a situation and a system in 
Nigeria where those resources could be used to better the 
welfare of the Nigerian people, certainly U.S. investment in 
the oil sector could have a major impact.
    Our policy on the Delta, I think we recognize the 
seriousness of the situation there. We would like to be 
helpful. There are problems that are very, very complex. 
Sometimes I think we don't understand all of the complexities 
because they deal with ethnic tensions that go back from time 
immemorial. You have generational differences there, 
traditional structures have broken down, and there is an 
element of criminality now, I think, that has crept into this.
    We would like to see, as I am sure the American companies 
that have made investments in the Delta would like to see, 
stability and peace development in that area. We recognize that 
it is an area that has been subject to ecological devastation. 
That is a problem that has to be dealt with. It is also 
characterized by deprivation on the part of the people. I think 
the Nigerian Government--and we certainly encourage this--is 
trying to make some amends for not providing the needed 
assistance in the Delta over the years.
    The system that was in place was very corrupt. I think that 
this new government plans to put in place a new system. We 
would like to work with international partners, with NGO's, 
with the oil companies to see what we can do in collaboration 
one with another.
    Wealth sharing. One of the impressions that we came away 
with from our 2-week assessment mission is the tremendous 
popularity of this government, the Obasanjo administration, and 
I think it is because the Nigerian people perceive that this 
President, this leader, given his background, his experience, 
he has been there once before, and perhaps even his sincerity, 
will make their lives better. If you have less corruption in 
the system, you are bound to have a greater equity, greater 
sharing of equity and wealth.
    The constitution. The new constitution, I think, addresses 
this issue as well by providing for 13 percent of national 
resources to be distributed among the localities and states. So 
I think that there is some progress being made on that. It is a 
big socioeconomic issue that the Nigerians are going to have to 
deal with, and I am sorry for the long answer.
    Mr. Royce. Ambassador Jeter, we want to thank you for your 
testimony here today, and that is going to complete our first 
panel. We very much appreciate it. We wish you success in your 
mission as envoy, and thank you so much.
    Mr. Jeter. Thank you very much, Mr. Chairman, and my thanks 
to all the Members of the Subcommittee.
    Mr. Royce. Very good.
    As we go to our second and final panel, we will ask our 
three witnesses to come forward. As our witnesses are taking 
their seats, I will make a couple of observations. We already 
have a copy of your written testimony. We have had them for 
several days and the Members read them last evening. I would 
really urge you to give us 5 minutes of summation, and I would 
urge you not to read your testimony, just share it with us.
    I will introduce to the panel our witnesses here today. Ms. 
Bronwen Manby is a researcher in the Africa Division, Human 
Rights Watch, where she is responsible for the organization's 
work for Nigeria and South Africa, as well as advocacy work on 
other countries. The work on Nigeria has recently focused on 
human rights in the Niger Delta. She is the author of The Price 
of Oil: Corporate Responsibility and Human Rights Violations in 
Nigeria's Oil Producing Communities.
    We also have with us Ambassador David Miller, Jr., 
President and CEO of ParEx, a privately held investment company 
based in Washington and Lucerne, Switzerland. Ambassador 
Miller, in his distinguished career, has served as Special 
Assistant to the President for National Security Advisor 
Affairs and Ambassador to both Tanzania and Zimbabwe. He spent 
4 years in Nigeria where he worked for Westinghouse. Ambassador 
Miller is coauthor of The United States and Africa: A Post-Cold 
War Perspective. Ambassador, welcome back to the Subcommittee.
    Mr. Lloyd Pierson is the director of the Africa Division 
for the International Republican Institute. He was Associate 
Director of the Peace Corps prior to joining the IRI. Mr. 
Pierson served as the Peace Corps Country Director in Ghana and 
Botswana from 1984 to 1991, and he is no stranger to Capitol 
Hill, having served as a congressional staffer.
    We will start with Ms. Manby.

STATEMENTS OF BRONWEN MANBY, RESEARCHER, AFRICA DIVISION, HUMAN 
                          RIGHTS WATCH

    Ms. Manby. Thank you, Mr. Chairman, and thank you for this 
invitation to Human Rights Watch to address the Subcommittee on 
human rights in Nigeria.
    Mr. Chairman, Human Rights Watch believes that the 
developments in Nigeria over the last year offer a real hope 
that the country can take its rightful place as a leader of the 
African Continent and that its citizens can enjoy the respect 
of the human rights to which they are entitled. However, the 
new government faces huge obstacles in achieving this goal in 
the face of the patent and widespread and systematic abuse that 
it has inherited from its predecessors, especially considering 
the shaky electoral foundations on which it stands.
    In particular, we are concerned that the government may be 
tempted to respond violently to the discontent in the Niger 
Delta, a response that would catastrophically reverse progress 
toward respect for human rights in Nigeria as a whole.
    The U.S. Government can play an important role in 
supporting legal and practical reforms by the Nigerian 
Government through technical assistance and diplomatic pressure 
and by assisting civil society organizations working toward 
increased respect for human rights.
    U.S. military assistance to Nigeria should be carefully 
tailored to ensure that it cannot be used to benefit officers 
who have been responsible for human rights violations or in 
situations where human rights violations are likely.
    The U.S. should also make clear to the Nigerian Government 
that any attempt to resolve the crisis in the Delta in a way 
that does not respect the rights of those who live in the oil-
producing region is unacceptable. Equally, the administration 
should insist that the U.S. oil companies working in Nigeria 
must play their part in ensuring that oil production does not 
continue only due to the threat or actual use of force against 
those who protest their activities.
    I will go on to highlight some of those points, 
International and domestic observers of the elections in 
Nigeria that led to the inauguration of President Obasanjo 
welcomed their peaceful completion as an important step forward 
in the return of Nigeria to civilian government, but they also 
noted some serious flaws in the process. Irregularities 
included vastly inflated figures for voter turnout, stuffing of 
ballot boxes, intimidation and bribery of both electoral 
officials and voters, and alteration of results at collation 
centers. These irregularities were widespread but were 
particularly serious in the South-South zone of the country, as 
it is called, the Niger Delta region.
    While Human Rights Watch shares the view of most domestic 
groups that there is no choice but to accept the election 
results, we do urge the U.S. Government to work with state 
institutions and NGO's in order to strengthen the links between 
the current government structures and their constituents and to 
ensure that the next elections held in Nigeria do represent a 
more genuine process.
    Similar problems arise in relation to the lack of a 
democratically drafted constitution. There is consensus among 
Nigerian civil society organizations that the process by which 
the constitution which came into effect on May 29th was adopted 
was illegitimate and that the arrangements in relation to a 
number of crucial areas are not acceptable. Human Rights Watch 
believes that the U.S. Government should urge the Nigerian 
Government to treat the current constitution as an interim 
document and institute an immediate, inclusive, and transparent 
process for drafting a new constitution which would be 
legitimate in the eyes of all Nigerians.
    The new government also faces a huge task in restoring the 
rule of law. Although certain reforms have been announced and 
are welcomed, in particular the repeal of a wide range of 
military decrees in the last days of the Abubakar regime, they 
are only the very first steps. There is an urgent need for the 
government to focus on issues relating to the administration of 
justice in order to restore respect for human rights and the 
rule of the law, a respect that is essential not only for the 
rights of the Nigerian people but also to promote the external 
investment that will be necessary to bring Nigeria out of its 
current economic crisis.
    Potentially one of the most important steps toward 
establishing a rule of law is the appointment of a panel to 
investigate assassinations and other human rights abuses and to 
make recommendations to address past injustices and to prevent 
future violations. The U.S. Government should support this 
process and emphasize the importance for the investigation to 
be a thorough one to ensure that the cycle of impunity for 
human rights violations that has been the rule in Nigeria is 
broken.
    With the inauguration of a civilian government, U.S. 
sanctions against Nigeria have been lifted, allowing for the 
resumption of military assistance to Nigeria, including under 
the IMET Program. Human Rights Watch is concerned that military 
assistance should include strict human rights conditions and 
should be in the context of a thought-out strategy for 
increasing democratic accountability of the Nigerian military, 
while emphasizing that any future attempt by the military to 
seize power will be met with tough sanctions.
    Finally, I will turn to the Niger Delta where most U.S. 
investment in Nigeria is concentrated. The crisis in the oil-
producing regions is one of the most pressing issues for the 
new government and has the greatest potential to lead to a 
serious deterioration in respect to human rights. In response 
to increasing discontent in the Delta, large numbers of 
soldiers and paramilitary mobile police have been deployed. 
Although there is a clear need for law and order to be 
reestablished in some areas, security forces have both failed 
to protect civilians from violence in many cases and have also 
themselves carried out serious and widespread violations of 
human rights. Oil companies operating in Nigeria often fail to 
acknowledge any responsibility when security force action is 
taken in nominal defense of their facilities, although they 
have in many respects contributed toward the discontent and 
conflict within and between communities that has resulted in 
repressive government responses.
    While President Obasanjo has visited the Delta area and 
held discussions with local leaders and promised to bring 
greater development to the Delta, leaders of ethnic groups 
based in the Delta have rejected a bill for the establishment 
of a Niger Delta Development Commission, since it does not 
address their central concerns surrounding revenue allocation 
and resource control.
    Human Rights Watch believes that the U.S. should urge the 
Nigerian Government, among other steps, to appoint an 
independent judicial inquiry to investigate human rights 
violations in the Delta, including during the Ogoni crisis and 
over the 1998-99 New Year period when a heavy crack-down took 
place, and to discipline or prosecute those responsible and 
compensate the victims.
    The government should take steps to replace soldiers 
carrying out policing duties in the Niger Delta area and 
elsewhere with regular police and should institute negotiations 
with freely chosen representatives of the people in the Niger 
Delta to resolve the issues surrounding the production of oil.
    U.S.-based oil companies operating in Nigeria, especially 
Chevron, Mobil, and Texaco, which operate joint ventures with 
the Nigerian Government, also share a responsibility to ensure 
that oil production does not continue at the cost of violation 
of those who live in the areas where oil is produced. Given the 
deteriorating security situation, it is all the more urgent for 
the companies to adopt systematic steps to ensure that the 
protection of company staff and property does not result in 
summary executions, arbitrary detentions, and other violations.
    In conclusion, Mr. Chairman, I would like to say that the 
U.S. Congress has played a very important role in monitoring 
U.S. Administration policy toward Nigeria over the past years, 
and in this context, I would like to recognize and thank 
Congressman Payne in particular for his efforts.
    Although the situation in Nigeria has improved, we welcome 
these hearings to look at, prospectively, U.S. policy, and 
think that Congress and this Committee has an important role to 
play for the future.
    Mr. Royce. I thank you, Ms. Manby.
    [The prepared statement of Ms. Manby appears in the 
appendix.]
    Mr. Royce. We will now go to Ambassador Miller.

    STATEMENT OF DAVID C. MILLER, JR., PRESIDENT ParEx, INC.

    Mr. Miller. Thank you, Mr. Chairman. I can follow on with 
her comments, which is to say thank you very much for having 
these hearings. It is great to see your Committee taking the 
time to focus on Nigeria. I think this is the fourth time I 
have been here to review the subject, and certainly today is a 
happier day than we have seen in the previous three.
    As we are operating under General Scowcroft's rules, as I 
understand it, which is we have 5 minutes to cover everything, 
I will try to be as quick as I can. I would like to submit the 
statement for the record and to summarize its major 
observations.
    The first is that oil companies are still pursuing the same 
policy that they were 5 years ago, which we have called loosely 
a responsible engagement. Our donations for the past 5 years 
have been larger than the USAID Program for Nigeria and will 
probably maintain that status for this year, sadly.
    As Ambassador Jeter said, it is time to look at a dramatic 
decrease in aid to Nigeria and we would be more than pleased to 
appear here next year and say that our programs are 
substantially smaller than the U.S. Government programs.
    As you know, we are also very active with Vision 2010 and 
the definition of an economic future for Nigeria, which we 
believe the Obasanjo government is going to find very helpful.
    That said, we believe that democracy is going to flourish 
if the economy works, and today, we are still looking at a 50 
percent malnutrition rate among children 2 to 5. We are looking 
at a 20 percent death rate in children before the age of 5, and 
they just completed a study on poverty in Nigeria which put 67 
percent of the Nigerian people living in poverty. It is hard to 
build a democratic government on that foundation.
    We do believe Nigeria is on the road to a solid democratic 
government, and when we last appeared we were talking about 
General Abubakar and the skepticism with which his promises 
were met in the United States. He indicated that he was going 
to turn over by May 29 and have elections, and most people here 
said surely that is not going to happen. It did, and I think 
that Obasanjo's first 9 weeks have been very good. His 
inaugural speech was tough. He hit corruption very hard in the 
opening part of his speech.
    As Ambassador Jeter has pointed out, a lot of senior 
officers are no longer in office. The inquiries are going to go 
back 20 years. The Speaker of the House was removed. That is 
all fine until you look at what he faces, and that is a 
reduction in the Federal budget by 40 percent, foreign currency 
reserves are down to 4.6 billion from 7.1.
    The thing that I think is hardest for him is when he pushes 
or pulls on levers, he gets no response. The civil service has 
really been destroyed over a period of years. The university 
system, if you really want to cry, is to talk to the Governors 
to hear about ABU being closed, schools that had a great 
reputation across the continent aren't functioning today.
    The political parties right now are vehicles for 
individuals more than for ideologies, and over time we need to 
build a party structure in Nigeria that speaks to ideology and 
not just personality.
    Clearly, everybody is concerned about the Delta, and there 
is probably enough horrible things that have happened in the 
Delta at one time or another to cover an entire presentation. I 
would simply like to offer the following observation.
    In Nigeria, the problem of the Delta is simply one problem 
among a terribly serious and long list of problems. We have to 
deal with it. It has the possibility of really blowing up under 
our feet, but when you are in Abuja, the Delta looks like just 
one of the multiplicity of challenges.
    Listening to this presentation and talking to my friends 
here in town, I think it is a wonderful time for the U.S., 
public sector and private sector and NGO's, to get together and 
work together. Nigeria needs help today and it will for the 
next 5 years, and there is absolutely no reason we can't work 
together.
    Two observations on that. I don't think we ought to set the 
bar too high. We in the United States have a tendency to expect 
our friends abroad to be able to perform miracles, I fear, in 
days, and I think we are going to have to give President 
Obasanjo and his colleagues some running room and tolerance as 
they try to perform.
    The last point is, I don't think we need to go to Abuja; 
everybody in the world is visiting Abuja right now to tell 
General Obasanjo what he should do. My colleagues and I would 
very much like to go to Abuja and say, Sir, if there are ways 
that we can contribute, we would like to do that. It is your 
country. If you can tell us what you would like, we would try 
to help.
    We have a lot of specific recommendations. At this point, 
Scowcroft would strangle me with my tie and tell me to be 
quiet. So I will. If you want to read the recommendations, they 
are all there, Mr. Chairman.
    Mr. Royce. We thank you, Ambassador Miller, and we thank 
General Scowcroft, and we hope we all follow those admonitions.
    [The prepared statement of Mr. Miller appears in the 
appendix.]
    Mr. Royce. We will go to Mr. Pierson. I want to thank all 
of the panelists for traveling here to testify today. We will 
conclude with Mr. Pierson.

    STATEMENT OF LLOYD PIERSON, DIRECTOR, AFRICA DIVISION, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Pierson. Thank you very much, Mr. Chairman. I will 
forego the reading of the testimony and address some of the 
very key issues that we feel are important in Nigeria. I first 
would like to once again thank you very much for being the 
chair of our Election Observation Delegation to Nigeria for the 
Presidential elections on February 27th and for Congressman 
Payne to be a co-leader of that delegation. It is very much 
appreciated and well remembered, the very hard work that you 
did.
    I would like to take this opportunity to thank a number of 
staff people who were very helpful and also participated in 
that mission. I want to make sure that I do not forget anybody 
and would like to pay particular respects to Tom Callahan, Les 
Munson, Charmain Houseman, Charisse Glassman, Tom Sheehy, Malik 
Chaka, and Joel Starr with Congressman Campbell.
    We believe that the first 60 days of the Obasanjo 
administration has started the country on a very good path. The 
expectations so far generally have been exceeded within this 
first 60 days, and we do temper that with some caution because 
we know that Nigeria can be a country of extremes, but the 
policies and process that have been laid out so far mark a very 
good start for democracy in Nigeria.
    We were contacted toward the end of the transition period 
by USAID and by representatives of President Obasanjo to put 
together a week-long conference prior to the inauguration in 
order for the President-elect to establish with incoming 
cabinet officers and senior government officials what would be 
the tenor of the administration.
    We met for a week in Abuja, and I will tell Members of this 
Committee that if there was any one paramount factor, one 
paramount issue that the President-elect insisted to the 
incoming members of his administration, advisors and others, 
was that anticorruption would be a hallmark of the Obasanjo 
administration.
    We were very fortunate, Transparency International was 
there also to talk about accountability and transparency 
issues. We had a bipartisan delegation from the United States 
that also participated. Representative Beryl Roberts Burke, a 
Democrat from Florida, and Republican State Senator Raymond 
Haynes from California, both received standing ovations for 
their discussions about democracy.
    What we really feel we are looking at in Nigeria is the 
quality of leadership at the top. We all know the history of 
Nigeria. We know about the Abacha regime, but what we are 
looking at, hopefully, is a new day in Nigeria in which this 
administration sets very high standards for its conduct.
    In the inaugural address, President Obasanjo outlined a 5-
point plan for the country: food security, unemployment, 
developing social and physical infrastructure, attacking 
educational problems, and resolving the Niger Delta crisis by 
the end of this calendar year.
    One of the major problems that we see in Nigeria is the 
lack of a multiparty system. Our research there, the longest 
lasting political party in the history of Nigeria has been one 
that lasted for 7 years. Generally, they have lasted for only a 
2- to 3-year period. So, as we know a democracy in which there 
is a strong political system, with an opposition that is an 
antidote to corruption and good government from the majority, 
there is no history of that in Nigeria, and that has been and 
is the principal focus of our work there.
    We are very hopeful. Once again, Mr. Chairman, we believe 
the first 60 days have been very effective, and particularly we 
would like to thank you and other Members of the Committee for 
this hearing today. Thank you.
    Mr. Royce. Thank you, Mr. Pierson.
    [The prepared statement of Mr. Pierson appears in the 
appendix.]
    Mr. Royce. I will start by asking Ms. Manby a question. In 
your testimony you state that those who peacefully protest the 
manner in which oil is currently produced have a right to make 
their voice heard, but what are the limits on this right of 
protest? Does it include the right to occupy oil platforms and 
shut down production, in your view? Or does it include the 
right of sabotaging operations? Those of us that were there 
during the elections heard both political candidates speak to 
the issue of trying to apportion revenue in the Delta which 
would go for the state and local governments to be spent 
regionally to address these concerns. How about this right to 
protest and how far does it go?
    Ms. Manby. Thank you, Mr. Chairman. There are criminal 
activities taking place in the Delta, many of them on what I 
would describe as a freelance basis, by people who are 
essentially looking for money, although they--some of them--
would also express their activities in political terms. 
Clearly, hostage taking is one of those activities. In 
addition, attempts to occupy flow stations cause criminal 
damage in some cases as well.
    Those acts are criminal offenses under Nigerian law, and 
where individuals have undertaken criminal damage, hostage 
taking and so forth, certainly I think that the correct 
response to those activities by the Nigerian Government is to 
arrest individuals, try them, sentence them as appropriate.
    However, there are situations in which large-scale 
demonstrations have been carried out, which are peaceful, 
unarmed, and the response has been that of military crackdown. 
I think most recently of the period over the New Year period 
when there was a military response to large demonstrations 
which led to the deaths of possibly up to 200 people. Those 
were demonstrations where people have a right to assemble and 
so forth.
    Mr. Royce. What about shutting down production? Is this 
criminal in your view?
    Ms. Manby. Under Nigerian law, certainly that is the case. 
The problem has been that the laws relating to economic 
sabotage have provided for trial before tribunals which do not 
respect due process. I am not absolutely up to speed with what 
the current situation is with regard to the laws. A range of 
military decrees were repealed as Abubakar went out of office, 
many of them setting up the special tribunals for the trial of 
sabotage. I have been actually trying to find out, but I am not 
yet completely cognizant of the current laws that are provided.
    I think that if you have a regular criminal justice system 
and people are being tried for recognizable criminal offenses 
before regular courts, that is fine. The issue is where people 
are being tried before special tribunals, without the right to 
legal representation, without the right to appeal, and in some 
cases to be sentenced to death even without the right to 
appeal. It is a question of due process.
    Mr. Royce. Thank you, Ms. Manby.
    Ambassador Miller, the oil companies operating in the Delta 
are now building schools and other public facilities for local 
government. They also negotiate security contracts with local 
chiefs. These efforts, which you refer to as development aid, 
cost the companies a considerable amount, and they are coming 
under increasing pressure there to spend more.
    Do foreign companies face similar operating environments 
elsewhere in the world or is Nigeria unique in this situation, 
and do the companies risk crossing a line where expectations 
become unrealistic?
    Mr. Miller. That is a lot of questions. Probably Nigeria is 
one of the more difficult environments in which our companies 
operate. I think the level of contribution of our companies in 
Nigeria is extraordinary. If we really sat down and did a 
global survey, you might find that the level of charitable 
activity in Nigeria was No. 1 or approaching No. 1.
    The issue you raise about is assistance appropriate or not 
is what we are facing today. When the government didn't work, 
our companies stepped in to provide governmental functions 
around their installations and in their neighborhoods and for 
their employees because there was no functioning government. 
Today, we have an elected government, and one of the keys is 
for our companies to help those governments retake their 
functions, if you will, and to get the Nigerian citizens to 
begin to look at their government as the provider of services 
and not foreign companies. We are engaged in a number of 
dialogues on that, but I think that is terribly important for 
the next 2 or 3 years.
    Mr. Royce. I thank you. I have one short question for Mr. 
Pierson. It is about the shape of the state and local 
governments in the Delta region. When we were there, it seems 
that that was the region with the lowest voter turnout and the 
most problems during the election. Give us your view of the 
condition of state and local government there in the South-
South.
    Mr. Pierson. I think it is very serious, Mr. Chairman, and 
part of it derives back to the Constitution of Nigeria, the 
existing one originally from 1979, and then the decrees that 
were promulgated just shortly before the Abubakar transition 
government left office. State and local government authority, 
not only in the Delta area but throughout Nigeria, is not well 
addressed, well addressed in terms of exactly what the 
authority is for state and local governments, as well as what 
kind of revenue that local governments can produce.
    One of the principal areas that we feel needs to be 
addressed, that the Delta crisis is very serious; the crisis 
there is a threat not only to democracy in Nigeria but to a 
stable democracy, and this question of community participation, 
of the kind of resources that are available to the local 
governments and the type of participation that local 
governments have, is exceedingly important to the resolution of 
that.
    A central government decision or resolution of that, 
probably no matter how benevolent, will not be a full 
resolution unless local governments are really vested with 
power in the Delta. We consider it a serious problem.
    Mr. Royce. Thank you very much. We will go to Mr. Payne of 
New Jersey.
    Mr. Payne. Thank you very much.
    Ms. Manby, thank you very much for the work that you do and 
for so many years, and thank you for your compliments earlier, 
too.
    Let me just ask a question. I indicated in my initial 
remarks that I felt that the election of Chief Obasanjo was not 
totally fair and free. I also, though, indicated that in my 
opinion, the fraud--and as you have mentioned some of it--was 
not of the magnitude that would alter the outcome. It doesn't 
make corruption right because it is not enough to alter the 
outcome.
    In other words, the Obasanjo party had won local election 
and won the state election, had won the Federal Congressional 
Elections, so it was no surprise; and the margin was about the 
same, although I think they did a little too much in some areas 
when they got 120 percent of the vote, but 100 percent might 
have looked better.
    But I just wonder whether, in your opinion, that with the 
name, the support, the financial support, the fact that 
Obasanjo had been a general, a tough general, no-nonsense 
person when the war between the eastern states went on, then 
gave the government over back to the civilians, was imprisoned 
himself--in my opinion, he was probably the best person at this 
time, military or not, feeling too uncomfortable, he knowing 
that there needs to be a new path.
    I guess my question is: Do you feel that in your opinion 
the corruption was significant enough to, in your opinion, 
alter the outcome?
    Ms. Manby. It is a difficult question to answer in the 
context of turnout, which was probably in the region of 20 
percent, although reported as 70 to 80 percent. Given that low 
turnout it is actually very difficult to say what the result 
would have been had there not been fraud.
    I think that Obasanjo does have genuine support. I think it 
is also the case that his selection as the candidate for the 
Peoples' Democratic Party was marked in the party primaries by 
blatant purchasing of votes. Who is to say whether or not he 
would have got that nomination anyway? I think it is actually 
very difficult to assess that point.
    Just to finish with an anecdote: I was talking to a 
colleague from a human rights organization in November last 
year, before any of the elections took place, and I asked him 
whether he was planning to participate. He said ``no, they have 
already decided who is going to be President'' and he named 
Obasanjo.
    Mr. Payne. I did have a lot of--I have been in campaigns. I 
know sometimes people--this guy runs for President, has got so 
much money he doesn't know what to do with it, and so it does 
have an impact all over the world.
    Let me just ask a question to anyone on the panel. Do you 
think that the U.S. has been able to come up with a policy 
toward Nigeria today? One of my criticisms of the Clinton 
administration, which I am a supporter of, was that they had no 
policy; that, the President said if Abacha took his jacket off 
and put on a suit and got elected, he would recognize him.
    Of course, Human Rights had said the week before that if 
Abacha ran for President and took his military uniform off, 
they didn't think he should be the President. We are pushing 
sanctions here, and I think Ambassador--what is his name, 
second in command at the state Department--so we don't think--
--
    Mr. Miller. Johnny Carson.
    Mr. Payne [continuing]. We don't think should be sanctions, 
so we had a lot of different policies. The Secretary of State 
had one view. Do you think that currently, now, we have a 
specific policy, and do you think it is going to be able to 
work in the context, Ambassador Miller or Mr. Pierson or even 
you, Ms. Manby?
    Mr. Pierson. Congressman, I can address in the democracy 
and governance area in terms of that policy and what the 
process has been. As we came into the transition period, 
roughly I believe, last August and October, funding and a 
decision on exactly what the participation of democracy in 
government organizations would be was not really determined at 
that time.
    National Endowment for Democracy had done some excellent 
work previously with human rights groups, but beginning roughly 
in September--as everybody really looked forward and we kept 
talking in terms of there was not just one election in Nigeria, 
there really were four, local government beginning on December 
5th, the funding mechanism and the emphasis on democracy in 
government activities--we began accelerating.
    We are in another one of those transition periods right now 
in terms of program decisions and funding that would be related 
to those program decisions. We are in a very, very tight 
squeeze right now, but we know that USAID is aware of that. 
They are working on it, and we think it will get resolved; but 
overall, we are very happy with the democracy and governance.
    Mr. Payne. Let me just very quickly, with this last point, 
with these problems with this oil, it seems that there was a 
problem before they started sabotaging, the military was able 
to sell, would get petrol and sell it 5 times for what people 
could get it at the pumps, and that was part of the problem.
    One of the dangers I think of getting a Niger Delta policy 
is that some people from the Niger Delta have got two extremes. 
First, the government did virtually nothing in that region. On 
the other hand, people from the region feel that actually all 
of the money should simply remain in the region.
    We have got two very far policies there. I think the 
government was totally wrong by not having some of the benefit 
of the funds in the Delta region because of the environmental 
degradation, all of those other problems, but by the same 
token, even in the U.S.--I mean, Louisiana is probably one of 
the poorest States in the Union, but they pumped all of the 
oil. Texas has never been up there in the days when oil was 
pumped in the U.S.A. So it is going to be difficult to try to 
say because of the wealth of a particular region, that they 
should get all of it.
    So it is a great divide, and I wonder if any work is being 
done on trying to get the government to do things in the region 
that should be done. But on the other hand, try to say that 
because the oil is pumped here, that all the money should 
remain here; and I don't want to get into Chevron's policy, I 
have got a whole question on that about ransoms and so forth. 
Once you start something, you simply encourage people to 
kidnap--if someone wants some currency--will just go and kidnap 
a couple of employees because they are going to pay the ransom, 
and it is just an incentive to have that continued and escalate 
up.
    I think it is a flawed policy. Once they started it, now 
they are caught up with it, and therefore had to feel that they 
needed to get heavy military people to assist them in their 
bargaining power. So it is something that started. If they had 
asked me, I might have had a suggestion, but they didn't.
    Just on that last question. I know my time has expired.
    Mr. Miller. Mr. Payne, what has happened in Nigeria is what 
happens in this body. The most important issue before this body 
is the allocation of national revenue. That is what a 
democratic government is all about, and you know that better 
than any of us sitting here. Those are the toughest votes: What 
are we going to do with the tax bill?
    Until these elections, Nigeria did not have the mechanism 
to discuss this in an open and candid way in public life. So I 
think the long-run answer is that the steps we have taken to 
see Nigeria elect representatives, to talk about revenue 
sharing, is the ultimate answer because that is ultimately what 
a democratic government does.
    Ms. Manby. To follow on from that, I think that certainly 
there is a much greater scope for dialogue now around the 
issues of revenue allocation, which I would entirely agree are 
key to the crisis. I think that there are points where the 
people who live in the Delta and the national government can 
meet in terms of revenue allocation.
    Human Rights Watch itself will not take a position on where 
that should that be, but I think that a genuine attempt to 
negotiate with people could achieve a solution, although it 
won't be easy to do so.
    I think, however, that the elections were especially 
problematic in the Niger Delta, where there were many places 
with turnout of 5 percent or lower, which means that the people 
who were elected from the Delta are not especially 
representative and that there is going to be a need to be 
imaginative about who you are going to talk to, though there 
are people there who can be talked to, who do represent the 
constituency. It is going to be difficult to do that. I think 
the government could do it. The Nigerian Government, I mean.
    I think it is not going far enough at the moment. The 
appointment of a Niger Delta Development Commission, which has 
very little new money, and the bill itself has been very poorly 
drafted, had a lot of criticism from groups in the Delta. That 
does not go far enough.
    They are going to have to look at the constitution itself 
and at those issues, including how the revenue is allocated. It 
is not going to be easy, but I think it is possible to achieve 
a solution if it is addressed seriously.
    Mr. Royce. Thank you, Mr. Payne.
    Ms. McKinney was next.
    Ms. McKinney. Thank you, Mr. Chairman.
    Ms. Manby, could you please tell me what was the Internal 
Security Task Force? What were the criminal incidents 
undertaken by the ISTF? Did the oil producers know that the 
ISTF was committing human rights abuses?
    Then I would also like for you to discuss a little bit 
about page 16 of your book, The Price of Oil, about the Parabe 
platform and the whole issue of proportionality of response.
    Ambassador Miller, I would have a question for you after we 
have heard Ms. Manby's response.
    Ms. Manby. Thank you. The Internal Security Task Force was 
set up in Rivers State, one of the States in the Niger Delta, 
in response to the protests led by Ken Saro-wiwa and the 
Movement for the Survival of the Ogoni People. During the 
period 1993 to 1998, it was responsible for very serious 
violations, including widespread detentions, arbitrary 
detentions, summary executions, rapes, and extortion of money.
    The oil companies in the Ogoni area which were specifically 
the target of the crisis there, which is Shell and Chevron, 
were certainly aware of those violations, and indeed, the head 
of the Internal Security Task Force used to complain that they 
didn't appreciate his efforts enough in ensuring that the MOSOP 
demonstrations were suppressed.
    Human Rights Watch has issued several reports criticizing 
especially Shell for its failure to protest the activities of 
the Internal Security Task Force to the degree that we and 
groups on the ground would have thought appropriate and to 
ensure that force was not used in defense of its installations. 
I should state, however, that the task force was a government 
body, not an oil company body.
    In response to your question about the Parabe platform 
incident, which was in May 1998 when an offshore platform 
belonging to Chevron was occupied by about 200 youths, and 
Chevron invited the Nigerian navy and other military units to 
come to the platform, using its helicopters, where an incident 
took place in which two of the youths were killed, and who, 
Chevron admitted had been unarmed. Human Rights Watch has 
expressed its concern about that incident and about an incident 
also involving Chevron in January of this year when, again, 
Chevron helicopters were used or helicopters leased by Chevron 
were used by the military to attack a couple of villages where 
up to 50 people may have been killed.
    While Human Rights Watch accepts that there may be some 
cases in which an oil company has no choice but to allow the 
military to requisition its equipment--for example, one could 
imagine a case in which there was a serious fire and oil 
company equipment was needed to address the fire--we do think 
that they should be taking much stronger steps to ensure that 
in such cases there are not human rights violations that 
result; in this case, 50 or more deaths.
    That would include agreements in advance with the military 
about the circumstances under which equipment could be 
requisitioned and also, for example, if, nonetheless, soldiers 
come and take equipment at gun point, making representations to 
the head of state about those situations, ensuring that victims 
are compensated and so forth.
    We have a very detailed series of recommendations which are 
in our reports.
    Ms. McKinney. Thank you.
    Ambassador Miller, could you, after hearing at least this, 
we also hear that similar situations have arisen in India and 
in Colombia as well, where U.S. companies are facing security 
threats as a result of unstable situations in the local host 
areas. Would you be supportive of--some of these responses, by 
the way, are just common sense responses that these 
corporations ought to engage in, but for some reason, they are 
not.
    Would you be supportive of a corporate code of conduct that 
would enlighten our corporations so that their responses would 
be more in line with common sense and less in line with human 
rights abuses?
    Mr. Miller. I think that is a loaded question. Let me try a 
response. I will take a bye on Colombia or India but let me 
talk about Nigeria.
    The situation in the Delta calls for a thoughtful and well-
educated and well-disciplined police force and probably the 
withdrawal of army troops. In the United States, when we have 
deployed army troops to do police functions, they frequently 
have not done them terribly well because they are not trained 
to act as policemen, and their unit discipline is designed to 
achieve things other than policing functions.
    In point of fact, the companies have been in a dialogue 
with, among others, Ambassador Jeter, trying to work out a way 
for the companies to support a U.S. Government initiative to 
provide police training to the Nigerians so that we can have a 
police force in the Delta, rather than army in the Delta; and 
if we get that far, I think you will see a decrease in the 
violence, because a thoughtful police force ought to be able to 
decrease the likelihood of violent confrontation.
    I am not sure that you need a code of conduct to achieve 
it. I think all of our corporations are terribly concerned that 
somebody is going to lose their life in a confrontation where 
that really need not happen.
    Ms. McKinney. Thank you, Mr. Chairman.
    Mr. Royce. Thank you, Ms. McKinney.
    We will go to Mr. Tancredo, and then to Mr. Meeks.
    Mr. Tancredo. Thank you, Mr. Chairman. This is really quite 
interesting. It seems like a complicating obstacle to dealing 
with the situation in the Delta is the difficulty in 
distinguishing between legitimate civil unrest and human rights 
grievances, and maybe you just touched on it with the creation 
of a--I think you said thoughtful, well-disciplined police 
force. Maybe that is really where we have to go with this.
    But what I am wondering, especially from Ambassador Miller 
and Ms. Manby, do you agree with me, first of all, that there 
is this difficulty in making a distinction in the Delta area 
about what is actually happening, which groups are responsible 
for what kind of activity? Is there an attempt, to the best of 
your knowledge, to actually deal with them separately; deal 
with the issues of, as I say, legitimate civil complaint and/or 
just gangsterism?
    Ms. Manby. Thank you. I think that there is on some 
occasions an overlap between pure criminal activities into 
legitimate political processes, and also that sometimes those 
who are engaged in essentially personal revenue-seeking do 
express their aims in political terms.
    However, I also think that it is fairly easy to discover 
people who are genuinely committed to improving the situation 
on the ground in the Delta and are adopting legitimate means of 
doing that. That is to say, noncriminal means, not involving 
threats to life, et cetera.
    I think that historically there has been no attempt at all 
to distinguish between those two sets of people, between 
hostage-takers and those who are demonstrating, for example, in 
support of their legitimate expectations that greater revenue 
from oil should come back to the Delta. The current government 
has shown certainly much more commitment to making that 
distinction than in the past.
    However, it is still the case that, for example--this is 
since the inauguration of Obasanjo--young men who go through 
military roadblocks, of which there are still many in the Niger 
Delta, who are carrying material relating to demands for 
greater revenue allocation to the Delta, get arrested, 
detained, beaten up.
    While there has been a greater attempt to make that 
distinction, it is still the case that on the ground, people 
are facing arbitrary harassment because of their political 
views. What happens, of course, is those people become more and 
more angry and more and more determined to take other steps in 
order to express their views.
    Mr. Tancredo. So would you agree, then, with the statement 
of Ambassador Miller that more effort should perhaps go into 
the creation of this more sophisticated police force?
    Ms. Manby. Certainly one of the recommendations we have 
been making, is that the army should be replaced with police in 
the Delta. I completely agree with the position that the army 
is not equipped for policing, and that one should be aiming for 
them to be withdrown, and that the police should be properly 
trained and, in particular, that individuals who have 
historically been involved in abuses should be screened out of 
that process.
    I think that in terms of who should be doing that training, 
we would be much more comfortable with an initiative by a 
multilateral body, the United Nations, the Commonwealth, and so 
forth. But certainly the question of properly trained police is 
an important one. On this issue, generally, I also think that 
an important related area is the question of military 
assistance to Nigeria. If, for example, one is looking at 
supplying military material to Nigerian troops operating in 
Sierra Leone under ECOMOG, there needs to be a lot of care 
taken to ensure that type of weaponry does not find its way 
into the Delta, is not used in terms to suppress protest in the 
Delta, and I think that there is a real role for this Committee 
to play in overseeing those types of military assistance 
initiatives.
    Mr. Tancredo. Mr. Ambassador, comment?
    Mr. Miller. In my previous life with General Scowcroft, I 
also worried about counterterrorism, and one of the things we 
see in the Delta that really is disturbing to me is this 
emergence of freely associating youth that are moving more into 
criminal activity, because they don't see any other way to 
express their grievances. Once that begins, maintenance of law 
and order is very difficult.
    I think Ms. Manby is right, I think we can identify leaders 
in the Delta today. I think if we get behind the Nigerian 
Government and help them reach out to these communities that we 
can solve the problems in the Delta, and the Nigerian 
Government will come up with a revenue sharing formula, and we 
can find a police force that will work, and so on and so forth.
    If we don't, they are at just the beginning of what feels 
like the Bekaa Valley, where every other week there was a new 
group announced that was out to promote peace, freedom, and 
justice in the name of somebody. That is a very, very difficult 
situation for anybody's government to deal with, let alone a 
Nigerian Government that is really struggling with getting its 
feet on the ground.
    Mr. Tancredo. Thank you.
    Mr. Royce. Thank you. Mr. Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. With the election of 
Mr. Obasanjo, and thus far, from what everyone is saying within 
the last 60 days, that they have all been saying good things, 
and it seems as though the country of Nigeria is on its way to 
democracy, and that is a big test for them.
    I also see it, though, as a big test for us in the United 
States of America. It is, an opportunity for us to stand up and 
show that we care about the Continent of Africa, and what we do 
now will be what the rest of the world and the rest of the 
Continent of Africa will look at. If we do something good for 
Nigeria to stabilize it and show that America truly has an 
interest in Nigeria, then maybe it will show a signal that 
America really has an interest in the Continent of Africa and 
not just in Europe and in other places.
    So I say all that to say that, in the discussion that I 
have heard thus far, we talk about political parties and 
whether or not a number of individuals came out, what 
percentage came out to vote. In my trip with the congressional 
delegation during the election, I talked to a number of 
individuals who were not concerned about the election simply 
because they had lost hope and faith in any political system or 
any political party, that it would not make a difference.
    What the people on the ground wanted to know was, how are 
our lives going to be made different? They have been made a 
hopeless people. I understand now that the problem of fuel 
shortages have been reduced, but I also saw that there were 
blackouts periodically throughout. I saw that there was a lack 
of complete sewer systems and infrastructure that was not in 
existence.
    Then you look at what is happening in the Delta, and 
basically it is a situation where individuals are made to live 
or are living in an impoverished area, and as long as they feel 
that they don't have any other opportunity because someone is 
taking all of the wealth out of the country, they are going to 
fight to do that.
    My question to you is, basically, what can we do? What do 
you see as our role in restoring the infrastructure in Nigeria 
which will then, I think, give the people a real sense of hope 
again in a government that is willing to do for the people? 
They can see infrastructure improvement and see--and I know 
that some of our major corporations are there, and I heard that 
if you take it on en masse as to what they contribute to 
charity, it is substantial. But I think that the people are not 
looking necessarily for that kind of charity. They want to know 
what can those major corporations who are making large dollars 
there give back or give in technology so that they can create 
the kind of infrastructure that is necessary, whether it is in 
the Delta or anyplace else in Nigeria.
    Mr. Miller. Mr. Meeks, sir, that is a great question, and I 
have been a colleague of Howard Jeter for years. I think 
Howard's comments were great. I think this administration needs 
to think very seriously about what more could be done for 
Nigeria, because it speaks volumes about our country that we 
will criticize when people are failing, but when they try and 
they are succeeding, we have an aid program of $28 million, 
which is just entirely too small.
    In terms of what the private sector can do, in the last two 
pages of my written statement, let me just run through very, 
very quickly. Nigeria flares 75 percent of its gas. It has a 
shortage of electrical power in country. It is insane to do 
that.
    We have been in a conversation with Secretary Richardson on 
his trip coming up. We hope Nigeria will develop a natural gas 
policy that will allow us, in essence, to use the natural gas 
that is being burned today.
    Second, all the oil companies' funds are kept offshore, 
which is also a tragedy for Nigeria. If the Treasury Department 
could work with Nigerian authorities and we could come up with 
good corresponding banking relationships and mass amounts of 
money could be kept in Nigerian banks with the same safety that 
they are kept offshore today, that would make a great 
difference, and a number of our officials have been pushing for 
this, and it would be great to see that happen.
    Third, there is a lot of Nigerian money abroad, and the 
question is how do we get the money back? With U.S. financial 
managers and a mutual fund for Nigeria, we think that there is 
an opportunity to bring back a lot of Nigerian money from 
abroad, which is only to say if your Committee had another 2 
days and we got everybody up here and we sat down and we came 
up with a game plan, we could do a tremendous amount for 
Nigeria than we are today.
    I am sorry I talked so long. I get excited.
    Ms. Manby. To respond to your question, I think there is a 
great deal that U.S. corporations can do and certainly there 
are infrastructure projects that are needed in relation to 
electricity and so forth. This is not really Human Rights Watch 
expertise or area. But I must say that in the context of the 
Niger Delta in particular, there has been a real problem with 
oil companies paying toward infrastructure projects that have 
effectively been vehicles for corruption, for people to take a 
30 percent cut as they have happened. While development 
spending is welcomed, there is a need for that to be 
transparent, for local groups to know what is happening, for 
accountability processes to be in place. Otherwise you risk 
creating more discontent, more conflict and exacerbating the 
situation.
    Mr. Pierson. Mr. Meeks, I would also like to mention a 
number of specific areas that we feel should be pursued in 
Nigeria. One is strengthen the judiciary. Two is help 
strengthen the rule of law through courts and the 
constitutional system in Nigeria. Political parties need to be 
strengthened. There needs to be a great deal more coordination 
between different agencies of the Nigerian Government. We 
believe there needs to be some very strong assessments at the 
state and local government area as to exactly what their 
authority is and what kind of changes should be made, and that 
we should help, to the extent that we can, to build true 
federalism in Nigeria.
    The past governments, as we know, have worked toward the 
benefit of the government and not toward the benefit of the 
people and restoring faith and building confidence in the 
government. Much will be dictated by the actions of what the 
administration is doing.
    Mr. Royce. Thank you, Mr. Pierson. I thank all our 
witnesses who came from great distances, especially Ms. Manby 
who came all the way from London today. There are three other 
individuals we would like to recognize and thank at this time 
as well. These hearings throughout the year have been organized 
and assisted by three interns who are with us today. This will 
be their last hearing. So I would like to ask the three of them 
to stand to be recognized: Neda Farzan, Meytal Kashi, and Lori 
Schwarz, if you will all stand and be recognized by the 
Committee. We appreciate very much your good work. Thank you, 
and this hearing is adjourned.
    [Whereupon, at 12:40 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 25, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T3273.001
    
    [GRAPHIC] [TIFF OMITTED] T3273.002
    
    [GRAPHIC] [TIFF OMITTED] T3273.003
    
    [GRAPHIC] [TIFF OMITTED] T3273.004
    
    [GRAPHIC] [TIFF OMITTED] T3273.005
    
    [GRAPHIC] [TIFF OMITTED] T3273.006
    
    [GRAPHIC] [TIFF OMITTED] T3273.007
    
    [GRAPHIC] [TIFF OMITTED] T3273.008
    
    [GRAPHIC] [TIFF OMITTED] T3273.009
    
    [GRAPHIC] [TIFF OMITTED] T3273.010
    
    [GRAPHIC] [TIFF OMITTED] T3273.011
    
    [GRAPHIC] [TIFF OMITTED] T3273.012
    
    [GRAPHIC] [TIFF OMITTED] T3273.013
    
    [GRAPHIC] [TIFF OMITTED] T3273.014
    
    [GRAPHIC] [TIFF OMITTED] T3273.015
    
    [GRAPHIC] [TIFF OMITTED] T3273.016
    
    [GRAPHIC] [TIFF OMITTED] T3273.017
    
    [GRAPHIC] [TIFF OMITTED] T3273.018
    
    [GRAPHIC] [TIFF OMITTED] T3273.019
    
    [GRAPHIC] [TIFF OMITTED] T3273.020
    
    [GRAPHIC] [TIFF OMITTED] T3273.021
    
    [GRAPHIC] [TIFF OMITTED] T3273.022
    
    [GRAPHIC] [TIFF OMITTED] T3273.023
    
    [GRAPHIC] [TIFF OMITTED] T3273.024
    
    [GRAPHIC] [TIFF OMITTED] T3273.025
    
    [GRAPHIC] [TIFF OMITTED] T3273.026
    
    [GRAPHIC] [TIFF OMITTED] T3273.027
    
    [GRAPHIC] [TIFF OMITTED] T3273.028
    
    [GRAPHIC] [TIFF OMITTED] T3273.029
    
    [GRAPHIC] [TIFF OMITTED] T3273.030
    
    [GRAPHIC] [TIFF OMITTED] T3273.031
    
    [GRAPHIC] [TIFF OMITTED] T3273.032
    
    [GRAPHIC] [TIFF OMITTED] T3273.033
    
    [GRAPHIC] [TIFF OMITTED] T3273.034
    
    [GRAPHIC] [TIFF OMITTED] T3273.035
    
    [GRAPHIC] [TIFF OMITTED] T3273.036
    
    [GRAPHIC] [TIFF OMITTED] T3273.037
    
    [GRAPHIC] [TIFF OMITTED] T3273.038
    
    [GRAPHIC] [TIFF OMITTED] T3273.039
    
    [GRAPHIC] [TIFF OMITTED] T3273.040
    
    [GRAPHIC] [TIFF OMITTED] T3273.041
    

</pre></body></html>
